U.S. Department of                                   The Inspector General         Office of Inspector General
Transportation                                                                     Washington, DC 20590
Office of the Secretary
of Transportation


March 21, 2011

The Honorable Jerry F. Costello
Ranking Member, Subcommittee on Aviation
Committee on Transportation and Infrastructure
United States House of Representatives
Washington, DC 20515

Dear Ranking Member Costello:

Thank you for your letter requesting that we examine the Federal Aviation
Administration’s (FAA) oversight of on-demand aircraft operators. Specifically, you
noted concerns that this segment of the aviation industry—widely used for short
passenger flights, emergency medical transport, and small community access—
operates with more risk but with less stringent regulatory requirements and FAA
oversight than large, commercial carriers. In response, we conducted a review to
evaluate these differences and their potential safety implications and identify specific
challenges to FAA’s oversight. We issued a report in July 2009 and recommended
actions for FAA to revise outdated safety regulations and improve its risk assessment
processes. 1 We also testified before the House Subcommittee on Aviation in March
2010 on areas where FAA should focus its oversight efforts for on-demand
operations, such as Helicopter Emergency Medical Services (HEMS) and air tours. 2
Since then, FAA has made notable progress in addressing our recommendations and
improving its oversight of this industry.

In summary, FAA has enhanced its oversight by developing risk-based tools to
specifically target safety issues inherent to on-demand operations and by improving
surveillance resources for FAA inspectors. FAA has also begun updating the
regulatory structure for on-demand operators with rulemakings to address risks within
HEMS operations and reduce human error in the cockpit through required crew
resource management training. We are not making any additional recommendations
to FAA at this time but will continue to monitor its efforts in these areas. The
following discusses FAA’s actions in further detail.
1
    OIG Report Number AV-2009-066, “On-Demand Operators Have Less Stringent Safety Requirements and Oversight
    Than Large Commercial Carriers,” July 13, 2009. OIG reports and testimonies are available on our website:
    www.oig.dot.gov.
2
    OIG Testimony Number CC-2010-035, “The Federal Aviation Administration’s Oversight of On-Demand Aircraft
    Operators,” March 17, 2010.


CC-2007-103
                                                                                                       2


FAA Has Improved Its Risk-Based Oversight of Part 135 Operators
We reported in 2009 that FAA’s oversight of on-demand operators was based
primarily on compliance with minimum FAA standards rather than where risk
dictates. FAA’s inspections were pre-determined at the national level, causing some
on-demand operators with the most operational risks to receive fewer FAA
inspections. Conversely, FAA oversight of large, commercial air carriers is based on
risk assessments. Our report acknowledged FAA’s ongoing efforts to develop a new
risk-based oversight approach for on-demand operators; however, this new system is
not scheduled for full deployment until 2013. We recommended that, in designing
this system, FAA consider the inherent operational risk factors in on-demand
operations. Our testimony last March also noted oversight gaps as FAA’s inspectors
for on-demand operators oversee multiple, geographically dispersed operations and
generally did not use available FAA tools to best prioritize inspections based on key
safety factors. FAA has since made the following significant strides to better identify
risks in on-demand operations and adjust its inspectors’ surveillance accordingly.

    • Developing On-Demand Operator Risk Indicators: FAA has developed an
      initial set of risk indicators 3 that can be used to qualitatively and quantitatively
      evaluate the overall risk profile of an air carrier. However, rather than waiting for
      the 2013 deployment of the new risk based oversight system, FAA plans to begin
      using these indicators immediately. The risk indicators are divided into three
      categories:

        o Air Carrier Performance History, which includes factors associated with the
          documented performance of the air carrier. This includes reports of accidents,
          incidents, and occurrences and surveillance results from FAA and other
          agencies, such as the Department of Defense.
        o Air Carrier Operational Factors, such as the size and complexity of air
          carriers’ operations as well as other factors of the operational environment.
          These include aircraft types used, age of the fleet, geographic extent of
          operations, special weather considerations, and scheduled/non-scheduled
          operations.
        o Air Carrier Organizational Factors, such as an air carrier’s business strategy
          or model, operations and company stability, and ability of the air carrier to
          balance its organizational resources and structure with operational
          requirements.

      FAA also developed decision aids to assist inspectors in evaluating the risk
      indicators associated with their air carrier. The overall score of the operator
      determines what actions FAA inspectors should take, such as targeted surveillance
      at specific operators.
3
    These indicators are considered “draft” and have not received final approval from FAA officials.


CC-2007-103
                                                                                                                           3


    • Reinstating the Geographic Inspector Program for Commercial and On-
      Demand Carriers: To further enhance oversight, FAA issued procedures in
      October 2010 to its inspectors to help them determine when they need to request
      additional surveillance assistance outside their office’s geographic area of
      responsibility. 4 For example, inspectors might determine that based on risk
      assessments, they need surveillance assistance at airports where their assigned
      operators fly but that are outside of their geographic jurisdiction. The inspector
      can request specific surveillance, such as facility, aircraft records, or spot
      inspections, at a particular airport. FAA will deploy this surveillance program in
      three phases, each of which includes reviews of on-demand operators. 5 Under the
      first phase, 115 Part 135 6 operators from all regions across the United States will
      participate in this program. By the third phase—scheduled for September 2012—
      1,671 Part 135 on-demand operators will have participated.

    • Mandating Use of the Surveillance Priority Index (SPI): The SPI is an FAA
      inspector tool to aid in prioritizing surveillance based on risk. The SPI uses fleet
      size, accidents and incidents, management turnover, violations, and other factors
      to quantify the risk status of on-demand operators. The SPI provides a ranked
      order that can be used as the basis for increased surveillance of on-demand
      operators.

      At the time of our audit, FAA did not require inspectors to use this tool to
      prioritize surveillance. As a result, only 6 of the 43 inspectors we interviewed
      used SPI scores to aid in targeting resources. However, on August 12, 2010, FAA
      mandated that inspectors use this important risk assessment tool and provided
      guidance on how to do so. The SPI allows FAA to leverage resources more
      efficiently by focusing attention and surveillance where it is most needed. We will
      continue to monitor FAA’s implementation of this tool.

FAA has made significant progress in advancing its risk-based oversight approach for
the Part 135 industry, but, as we testified in March 2010, it could further improve its
risk assessments if its inspectors had access to more accurate industry data.
Currently, FAA relies on its General Aviation and Air Taxi Activity Survey, an
annual voluntary survey, to collect industry data and project accident rates. 7 While
63 percent of operators participate in this voluntary survey, the survey does not collect
4
    FAA Notice N8900.137, “Flight Standards Service (AFS) Geographic Surveillance Program for 14 CFR Parts 121 and
    135--Phase 1,” October 29, 2010. FAA utilized a geographic inspector program previously but phased out the program in
    FY 2007.
5
    This notice does not include 469 single-pilot Part 135 on-demand operators.
6
    14 CFR Part 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules Governing
    Persons On Board Such Aircraft. 14 CFR Part 119, Certification: Air Carriers and Commercial Operators, and some of
    the requirements of Part 91 also pertain to on-demand operators and commercial air carriers.
7
    This survey is also referred to as the General Aviation Part 135 Activity (GAP135A) Survey. Although on-demand
    operations are a form of commercial aviation, FAA has elected to group these operators with private general aviation for
    the purposes of data collection. In addition, when FAA reports commercial aviation accidents and fatalities, this includes
    only large, commercial air carriers (i.e., Part 121) and omits on-demand accidents and fatalities.


CC-2007-103
                                                                                                                      4


data on the number of passengers, departures, and other key elements needed to assess
risk and make more accurate accident projections. The National Transportation
Safety Board (NTSB) has repeatedly cited problems with the type of data the survey
collects and made several recommendations to improve the survey. FAA has made
some improvements to the survey but still has not called for mandatory data reporting.
Without these data, FAA cannot fully evaluate the risk associated with different types
of on-demand operations. To further enhance its risk assessment capabilities, FAA
should pursue NTSB’s recommendations in this area.

FAA Has Made Progress in Updating the Regulatory Structure for Part
135 Operators
Our March 2010 testimony noted that, despite the inherent risks within on-demand
operators’ environment, the regulations governing their safety and oversight were less
rigorous than those for commercial carriers and had not been updated in more than
3 decades. This is a significant concern as on-demand operators typically fly in an
environment that poses a number of inherent safety risks. For example, HEMS
operators typically have shorter flights with more takeoffs and landings at altitudes
that are vulnerable to terrain and weather obstacles. Many HEMS flights pick up
patients at accident scenes and land at hospital helipads without the benefit of air
traffic control. In addition, we found that regulations did not require most on-demand
operators to provide their pilots with Crew Resource Management (CRM) training,
which focuses on leadership and decision making skills in the cockpit. 8 FAA has
since undertaken rulemakings to impose new safety requirements on HEMS operators
and expand CRM training throughout the on-demand industry.

    • Enhancing Safety in the Helicopter Emergency Medical Services Industry:
      During 2003 and 2004, the HEMS industry experienced 32 accidents, resulting in
      25 fatalities. Because of the large number of fatalities and the high-risk
      environment within the HEMS industry, FAA established a HEMS safety
      initiative in August 2004. Rather than regulatory requirements, this initiative
      focused on voluntary compliance by operators. After our March 2010 testimony,
      FAA recognized that voluntary compliance alone was not enough to ensure safe
      flight operations and proposed a rulemaking 9 in October to address many of the
      HEMS issues identified over the years. For example, FAA’s proposed rule would
      require operators to implement pre-flight risk analysis programs. It would also
      require operators with 10 or more helicopters engaged in air ambulance operations
      to establish an operational control center that would communicate with pilots,
      advise them on weather conditions, and monitor the progress of each flight. In
8
    CRM is one of the NTSB’s top six recommended safety improvements for on-demand operators. The NTSB determined
    that crew errors were the primary cause of three on-demand accidents between 2001 and 2004 and concluded that an
    effective CRM program might have prevented them.
9
    Air Ambulance and Commercial Helicopter Operations, Part 91 Helicopter Operations, and Part 135 Aircraft Operations;
    Safety Initiatives and Miscellaneous Amendments; Docket ID: FAA-2010-0982 Agency: FAA RIN: 2120-AJ53
    (Published in the Federal Register on October 12, 2010).


CC-2007-103
                                                                                                                            5


       addition, the proposed rule includes a requirement for HEMS operators to equip
       their fleets with terrain awareness warning systems in the cockpit 10 to reduce the
       risk of controlled flight into terrain 11—a common causal factor FAA identified in
       HEMS accidents. We will continue to monitor FAA’s efforts to finalize this
       important rulemaking.

     • Implementing Crew Resource Management: On January 20, 2011, FAA
       finalized a rule 12 that requires all on-demand operators to train pilots and flight
       attendants in CRM. CRM is a concept that helps reduce human error in
       commercial aviation by teaching pilots, flight attendants, and other aviation
       workers to work as a team. The training must address the captain’s authority,
       intra-crew communications, teamwork, workload management, time, fatigue and
       stress, and decision making skills. FAA has required this type of training for
       larger commercial air carriers since 1995.

During our audit, we also identified other FAA watch areas regarding Part 135 on-
demand operators. Many of these mirror those NTSB has identified as a result of
accident investigations. While we commend FAA for its recent safety advancements
in this industry, the Agency needs to implement NTSB’s recommendations aimed at
closing the regulatory and oversight gaps that remain in areas such as air tours and
illegal operators.

     • Air Tour Operators: Air tour operations are inherently high-risk since they are
       usually conducted at low attitudes in areas where other aircraft are operating and
       with pilots who are conversing with passengers. Yet, some air tour operators are
       permitted to fly for hire under general aviation regulations, 13 which have fewer
       requirements for FAA oversight. NTSB has recommended that FAA develop and
       implement national standards to bring all air tour flights under Part 135
       requirements. While FAA issued a rule for air tours in February 2007, 14 it was
       substantially changed from its original version. The final rule did not require
       many of the standards in place for Part 135 operators, including pilot training
       programs, more stringent maintenance policies, flight time limitations, crew rest
       restrictions, and an annual FAA surveillance program.

     • Illegal Operators: FAA regulations require operators that carry passengers for
       hire to have a valid Part 135 certificate. However, finding and taking action
       against illegal operators is a significant challenge for FAA. To identify them,
10
     Helicopter Terrain Awareness Warning System (H-TAWS) is technology specifically engineered for helicopter mission
     profiles that provides visual and/or aural advisories to help keep pilots safely separated from hazardous terrain and
     obstacles.
11
     Controlled flight into terrain (CFIT) occurs when an aircraft that is functioning normally is inadvertently flown into the
     ground, water, or an obstacle with inadequate awareness on the part of the pilot of the impending collision.
12
     Crew Resource Management Training for Crewmembers in Part 135 Operations; Docket No.: FAA-2009-0023;
     Amendment No.: 135-122, RIN 2120-AJ32 (published in the Federal Register on January 21, 2011).
13
     14 CFR Part 91, General Operating and Flight Rules.
14
     14 CFR Part 61, 91, 119, 121, 135, and 136.


CC-2007-103
                                                                                    6


   FAA generally relies on hotline complaints or the disclosure of an illegal operator
   through fatal accident investigations. For example, an illegal operator was
   discovered as a result of a March 2008 crash in Oklahoma that killed the two
   pilots and three passengers. During its investigation, NTSB determined that the
   local FAA office was too short-staffed and budget-constrained to catch on-demand
   operator violations. NTSB made several recommendations to help FAA identify
   illegal operators. For example, NTSB recommended that FAA assess why
   existing policies and procedures did not detect illegal operations and update the
   aircraft charter guide on the FAA website to include reliable information on the
   certification status of on-demand operators.

Overall, FAA has taken a number of significant steps to strengthen its oversight and
regulatory structure for on-demand operators. We commend FAA’s proactive interim
initiatives to better prioritize surveillance until it can fully implement a new risk-
based oversight approach, and we will continue to monitor this effort. As a result of
FAA’s progress, we do not intend to issue any additional recommendations to the
Agency at this time but may initiate future audits in this area to evaluate the
effectiveness of its actions.

Thank you again for your attention to this important issue. If I can answer any
questions, please contact me at (202) 366-1959 or Jeffrey B. Guzzetti, Assistant
Inspector General for Aviation and Special Program Audits, at (202) 366-0500.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure

cc: Federal Aviation Administrator




CC-2007-103
